No. 19-399

In the Supreme Court of the United States
Barry Caesar Garcia

Petitioner,
v.

State of North Dakota,
Respondent.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that this Reply in Support of
Certiorari contains 2,995 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 12, 2020.
/s/ John R. Mills
John R. Mills
PHILLIPS BLACK, INC.
1721 Broadway, Suite 201
Oakland, CA 94612
(888) 532-0897
j.mills@phillipsblack.org
Counsel for Barry Garcia

